<html>
<title> - BLACK-TAR HEROIN, METH AND COCAINE CONTINUE TO FLOOD THE UNITED STATES FROM MEXICO</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




BLACK-TAR HEROIN, METH AND COCAINE CONTINUE TO FLOOD THE UNITED STATES 
                              FROM MEXICO

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 30, 2000

                               __________

                           Serial No. 106-228

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
72-582 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
              Carson Nightwine, Professional Staff Member
                           Ryan McKee, Clerk
                    Sarah Despres, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 30, 2000....................................     1
Statement of:
    Brooks, Chief Fabienne, criminal investigations division, 
      King County Sheriff's Department, Seattle, WA; and Mario 
      Medina, family victim, Chimayo, NM.........................    63
    Furgeson, Judge W. Royal, Jr., U.S. District Court, Western 
      District of Texas; Joseph D. Keefe, Special Agent in 
      Charge, Special Operations Division, Drug Enforcement 
      Administration; Ed Logan, Special Agent in Charge, San 
      Diego, U.S. Customs Service; and Luis E. Barker, Chief 
      Border Patrol Agent, El Paso Sector, U.S. Border Patrol, 
      INS........................................................    12
Letters, statements, etc., submitted for the record by:
    Barker, Luis E., Chief Border Patrol Agent, El Paso Sector, 
      U.S. Border Patrol, INS, prepared statement of.............    44
    Brooks, Chief Fabienne, criminal investigations division, 
      King County Sheriff's Department, Seattle, WA, prepared 
      statement of...............................................    66
    Furgeson, Judge W. Royal, Jr., U.S. District Court, Western 
      District of Texas, prepared statement of...................    14
    Keefe, Joseph D., Special Agent in Charge, Special Operations 
      Division, Drug Enforcement Administration, prepared 
      statement of...............................................    24
    Logan, Ed, Special Agent in Charge, San Diego, U.S. Customs 
      Service, prepared statement of.............................    33
    Medina, Mario, family victim, Chimayo, NM, prepared statement 
      of.........................................................    79
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     7

 
BLACK-TAR HEROIN, METH AND COCAINE CONTINUE TO FLOOD THE UNITED STATES 
                              FROM MEXICO

                              ----------                              


                         FRIDAY, JUNE 30, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:38 a.m., in 
room 2247, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica and Kucinich.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Charley Diaz, congressional fellow; Carson Nightwine, 
professional staff member; Ryan McKee, clerk; Jason Snyder and 
Lauren Perny, interns; Sarah Despres, minority counsel; and 
Early Green, assistant minority clerk.
    Mr. Mica. Good morning. I would like to welcome you to this 
morning's hearing of the Criminal Justice, Drug Policy, and 
Human Resources Subcommittee.
    We are going to go ahead and begin. I know Members had a 
very long night. It was close to 2 a.m. Other Members have 
indicated they are coming, but because the session has been 
finished and the recess begun I am going to go ahead and start 
the hearing with the witnesses and hopefully be joined by some 
of the Members, who have had very little sleep but do plan to 
be with us.
    The order of business first is opening statements--I will 
start with mine and will yield to others, and we will leave the 
record open for a period of 2 weeks for additional comments, 
materials, or information to be submitted for the record. 
Without objection, so ordered.
    This morning's hearing focuses on black-tar heroin, 
methamphetamine, cocaine, and the deluge of illegal narcotics 
that continue to flood across our southern borders into the 
United States from Mexico.
    Despite Congress' effort, international drug trafficking 
remains a growing threat to our national security. 
Unfortunately, Mexico's role as a drug gateway to the United 
States continues to dramatically expand.
    As Ambassador Davidow, our United States Ambassador to 
Mexico, recently said, ``The fact is the headquarters of drug 
trafficking is in Mexico.'' I think that comment, which was 
somewhat controversial, but, nonetheless, very candid and 
accurate, speaks for the situation we find ourselves in today. 
Mexico is the headquarters of drug trafficking.
    Today, no country in the world possesses a more immediate 
drug threat to the United States than Mexico. More than 60 
percent of the cocaine on America's streets transit through our 
border with Mexico. Our Drug Enforcement Agency reports that 
Mexican black-tar and other heroin seizures skyrocketed by more 
than 20 percent in just 1 year, an outstanding increase that is 
just absolutely remarkable that in 1 year we would have a 20 
percent increase.
    The volume of methamphetamine, narcotics, and precursor 
chemicals from Mexico has also exploded, causing chaos and 
crime from rural America to urban centers, and I can testify to 
that. We have held hearings practically from sea to shining 
sea--California, Louisiana, Texas. I just came back. In the 
heartland of America, where three of our States meet--South 
Dakota, Iowa, the heartland of America, Nebraska--in Sioux 
City, IA, Monday morning we held a hearing with absolutely 
incredible testimony that methamphetamines are at epidemic 
levels and that rural America--again, the heartland of 
America--mostly the methamphetamine, the actual hard drug and 
those dealing in it, were Mexican drug lords and criminals 
involved in this activity, including many illegal aliens who 
have crossed our borders involved in this trafficking and 
death.
    We heard stories in California that absolutely chill your 
spine of dozens and dozens, hundreds of families devastated by 
methamphetamine, and the testimony we heard of one particular 
case of child abuse, where both the parents on methamphetamine 
had tortured the child and then finished it off by boiling it 
to death, as the ravage of what we are seeing from this 
methamphetamine, and most of it is coming across our borders 
from Mexico. Again, we are hearing it over and over as we do 
our national field hearings and hearings here in Washington.
    Sadly, also our Mexican-United States border has become the 
stage for violence, as well as drug trafficking. Mexican crime 
organizations use illegal immigrants and migrant workers to 
smuggle heroin, cocaine, methamphetamine, and other illegal 
narcotics, disrupting ranches and communities along the border, 
and, as I said, even into the heartland of our Nation.
    Mexican drug lords are so emboldened they have even offered 
bounties for United States agents.
    The National Drug Intelligence Center's threat assessment 
reports that the average size of Mexican heroin shipments is 
increasing and that South American heroin traffickers are 
increasingly smuggling Colombian heroin into the United States 
through Mexico. It is not bad enough that they have increased 
production some 20 percent in 1 year, and that is evidenced by 
the seizures that leaped that period, but also heroin that is 
now being grown in Colombia, produced in Colombia, is 
transiting at unprecedented quantities through Mexico, finding 
its way to our streets and communities.
    Again, these drugs end up in our schools, in our 
businesses, and homes throughout the country, giving us a 
problem of unbelievable magnitude.
    While Congress has poured substantial moneys into the 
southwest border initiatives to combat heroin trafficking, in 1 
year seizures of heroin in this area increased from 52 events 
and 103.8 kilograms seized in 1997 to 80 events and 145.9 
kilograms in 1998. The surge of high, pure, and cheap heroin is 
now threatening a growing number of people in the United 
States, and particularly we found and most alarmingly we found 
it is the young people of this country that are becoming the 
victims.
    The University of Michigan has reported that the use of 
heroin by 12 to 17-year-olds has doubled over the last 7 years. 
That same study indicated that 83,160 eighth graders--eighth 
graders, mind you--have tried heroin.
    The most recent estimate of the domestic hard-core heroin 
addict population in the United States is 980,000 people, and 
we have communities where we conducted hearings, like 
Baltimore, that now have somewhere in the neighborhood of 
80,000 heroin and drug addicts, according to one of the city 
councilwomen there. The number is one in eight individuals in 
Baltimore is a narcotics addict. Of course, we found that some 
of that is due to their liberal policy. We held a hearing there 
on, I think, Monday. On Thursday, thank God, the mayor fired 
the police chief who testified before us in a lackadaisical 
attitude toward enforcement, and Mayor O'Malley hopefully is 
going to help, and I am pledged to work with the minority, 
particularly Mr. Cummings from Baltimore, to turn that 
community around.
    Since the early 1990's, heroin use has increased 
dramatically, moving from big cities--and at one time heroin 
use was an urban problem--but now we see it affecting our 
smaller towns and dramatic increases in our rural areas. This 
is across the entire country now. No one has escaped the 
ravages of what we are seeing.
    As we will hear from one of our witnesses today, heroin, in 
particular, continues to have the largest impact of all illicit 
drugs used in the Seattle area in terms of drug-related 
deaths--also in emergency department episodes and in criminal 
involvement.
    Heroin overdoses and deaths continue to plague many of our 
metropolitan areas, also our suburbs. Again, I come from 
central Florida and represent a suburb area, and we have had 
young people dying in unprecedented numbers from heroin 
overdoses, and even our most recent statistics are more grim 
than the year before with the heroin deaths.
    In Oregon, the State medical examiner's office reports an 
average of five people a week died of heroin-related causes in 
the first 6 months of 1999.
    Our subcommittee continues to receive disturbing testimony 
that Mexican crime organizations are attempting to market their 
heroin and methamphetamine in new areas. We heard testimony of 
distinct marketing programs by these Mexican drug traffickers, 
again even in the rural heartland in America, on Monday.
    Analysts continue to examine the reason behind the surge in 
production, but say new, highly potent forms of heroin from 
drug cartels in Colombia and Mexico have been key to attracting 
new users, and this is unbelievable, but their new target are 
young women, girls. Young females are, indeed, their new 
target. These young people typically prefer to sniff or smoke 
their drugs rather than inject them. Now, with the more-potent 
heroin that is available, this high purity and deadly heroin, 
it is available as a powder in bags or gel capsules and users 
can get high without injecting. That has made this insidious 
drug a more seductive and palatable narcotic to young teenage 
girls and our youth.
    One of our witnesses today lost a sister to black-tar 
heroin. She was 1 of 85 people in Chimayo, NM, who died 
tragically in the past few years from ingesting this high-
potency heroin.
    Along with the increased availability has become a decrease 
in the price and an increase in purity. A milligram dose of 3.6 
percent pure heroin cost about $3.90, 20 years ago, according 
to DEA. Now the average milligram is 41.6 percent pure and 
costs only $1.
    DEA has recently seized Colombian heroin that was 98 
percent pure, and that is about as deadly as it gets.
    Sadly, heroin isn't the only deadly drug coming across the 
border. Three months ago I conducted two field hearings in 
California where the predominant drug problem was 
methamphetamine coming up from Mexico along the I-4, the major 
artery corridor, to Sacramento.
    In San Diego, our subcommittee heard testimony that 43 
percent of all individuals arrested in San Diego County were 
under the influence of methamphetamine, 43 percent. As I have 
said, the problem also is on the rampage in mid America.
    The field hearing that I cited in Sioux City, IA, again 
illustrated the breadth and depth of this problem. They call it 
``Mexican meth,'' and it is ravaging right now the midwest.
    Meth lab seizures in Iowa have increased from just 8 in 
1995 to over 500 last year. That is the testimony that we had. 
And I think that that was Federal seizures. Maybe the States I 
think and locals had another 300 seizures.
    At our recent Dallas hearing, DEA testified that in 
Oklahoma, alone, almost 1,000 labs were busted in 1999. In 
every one of those hearings I asked them where this garbage was 
coming from, where is this meth or the precursor chemicals and 
who is dealing, and every time the path leads back across the 
border to Mexico.
    Nationwide, DEA seized 218 illegal labs in 1993. Last year, 
DEA seized over 1,900. And if you count all the meth labs 
seized by State, local, and Federal officials nationwide, the 
number is over 6,400.
    Mexico is also the transportation corridor for 60 percent 
of the cocaine coming into this country. While the Mexicans 
don't produce any cocaine and they do produce this new surge of 
black-tar heroin that we have described--it is an incredible 
increase we have seen in a 1-year period--they are not 
producers of coke, the base for cocaine. However, again, Mexico 
is the major transit area for cocaine coming into this country.
    I am very concerned to learn this week that Mexican 
seizures of cocaine have again dropped. It shows again the lack 
of will, lack of participation, lack of commitment and thumbing 
their nose at the United States in this problem that Mexican 
officials again are reporting a drop in seizures of cocaine in 
that country.
    Given what we know has been almost a threefold increase in 
coca production over the past few years, this drop in seizures 
is a warning signal to me of very lax enforcement on their side 
of the border.
    Finally, the criminal organizations are more frequently 
using illegal immigrants to carry drugs across the border, and 
the number of illegal immigrants we are hearing that are 
involved in narcotics trafficking is astounding--again, even in 
Iowa. We conducted a hearing north of Atlanta, GA, with the 
vice chairman of the subcommittee some months ago and found an 
incredible number of illegal aliens in rural Georgia, and not 
much is being done to remove these people. We look at the 
resources they spent sending one Cuban boy back, and we can't 
get drug dealers and traffickers who are here illegally to 
begin with off our streets and sent back. Something is wrong.
    Now we read of ranchers who are patrolling their land with 
dogs and guns, and some ranchers resorting to being vigilantes 
in order to restore order along our borders. And the violence 
isn't occurring just on our side of the border. Mexican 
citizens right now are paying an incredible price for the drug 
trade that flourishes in their country. I have received reports 
that the states of Baja and the Yucatan Peninsula are also 
suffering from unprecedented numbers of murders and violence. 
What has been traditionally corruption in Mexico is now turning 
to a combination of corruption and incredible violence. In the 
state of Baja, they have even lined up people and gunned them 
down en masse, and we have record numbers of deaths in the 
Tijuana/Baja Peninsula area. They have killed, I believe, the 
second police chief there, and lawlessness prevails in that 
state that has now become a narco-terrorist province within 
Mexico.
    Just this April an ally of the United States, Mr. Jose 
Patino and his colleagues working to indict drug traffickers, 
were abducted, tortured, and executed as they drove from San 
Diego to Tijuana.
    While the administration has suggested that a strong 
bilateral approach to law enforcement with Mexico is necessary 
to achieving our mutual interests and controlling our border 
and protecting our citizens, very little has, in fact, been 
done to translate these words into action. Mexicans again 
continue to thumb their nose at even the basic request that the 
entire House of Representatives passed several years ago asking 
for extradition of Mexican drug dealers, and to date not one 
Mexican major drug kingpin has been extradited to the United 
States. Every one of our requests, in fact, that we have made 
through resolutions of the House have been ignored. In fact, 
some reports indicate that the Mexican Attorney General's 
Office has done little to strike a blow against the known 
traffickers in Mexico.
    I am greatly concerned that the vetted units that we have 
invested in cannot operate due to a lack of trust. They have 
made even a farce out of vetted units that we have attempted to 
establish.
    Where are the signs of cooperation? In each of the 
categories of extradition, including also, as I said, other 
things that have been requested, including a maritime agreement 
and anti-corruption measures, we have seen almost no or little 
progress. The only time we get any progress is close to 
certification when they think that there is some threat, but, 
unfortunately, they bought all the lobbying and P.R. resources 
they can to thwart the intent of our certification law, made a 
mockery of even that.
    Today, given the havoc that is being wreaked on our Nation, 
it is even more imperative that we critically examine the 
results of past efforts and develop and implement sound plans 
and strategic initiatives for the future. We should be ahead of 
the curve knowing at all times that we are making progress and 
not losing ground.
    My goodness, last night the House of Representatives did 
pass an emergency supplemental legislation. We know the source 
and route area that this administration has helped develop 
through its inane policy with Colombia. The source and problem 
is Colombia for a lot of the drugs that are produced. Mexico is 
now joining the production ranks in significant quantities. But 
I think that the action last night will provide us with the 
resources that we need to move forward.
    We were successful with initiatives that Mr. Hastert helped 
initiate, and the predecessor to this subcommittee helped 
initiate in Peru and Bolivia, and those have dramatically 
increased the production of cocaine in those countries, and I 
think that we will have a similar effect when the bill is well 
balanced to also provide resources to other areas. But, again, 
we must have an ally in this whole effort, and Mexico must be 
part of the picture since it is the biggest trafficker in 
illegal narcotics in the world right now.
    I am not convinced that Mexico has done enough, as you can 
obviously ascertain, to stem the rising tide of drug 
exportation across the border into this country.
    Just last month, seven U.S. court justices who represent 
the five districts that currently handle 26 percent of all 
criminal case filings in the southwest border courts came to 
Capitol Hill to tell Congress about the mounting crisis in 
their courts. These jurists reported that drug prosecutions in 
that area had doubled between 1994 and 1998, while immigration 
prosecutions increased five-fold.
    As a Nation, we must face certain irrefutable facts. 
Increasing the amount of illegal drugs, particularly heroin, 
coming from or through Mexico, in fact, is ending up on our 
streets. Heroin and those who traffic in it spread and finance 
gang violence, crime, destroy young lives, and undermine our 
communities and our very quality of life.
    The question remains how can we best stop what is going on, 
how can we best bring the situation under control, and that is 
why we are here today, to hear from witnesses who are involved 
directly on the front lines of this effort.
    I am pleased to have before us two panels this morning, and 
we will have additional statements by Members submitted to the 
record. Again, we will leave the record open for a period of 2 
weeks.
    [The prepared statement of Hon. John L. Mica follow:]
    [GRAPHIC] [TIFF OMITTED] T2582.001
    
    [GRAPHIC] [TIFF OMITTED] T2582.002
    
    [GRAPHIC] [TIFF OMITTED] T2582.003
    
    [GRAPHIC] [TIFF OMITTED] T2582.004
    
    [GRAPHIC] [TIFF OMITTED] T2582.005
    
    Mr. Mica. This morning, as we proceed, we have two witness 
panels. Let me introduce the first panel.
    The first panel is Judge W. Royal Furgeson, Jr., the U.S. 
District Court, Western District of Texas; Mr. Joseph D. Keefe, 
who is a Special Agent in Charge of Special Operations Division 
of the Drug Enforcement Administration; Mr. Ed Logan, who is a 
Special Agent in Charge, San Diego, of the U.S. Customs 
Service; and Mr. Luis E. Barker is a Chief Border Patrol Agent 
in El Paso sector of the U.S. Border Patrol under INS.
    We are pleased to welcome these witnesses to our 
subcommittee this morning.
    Let me say, as we proceed, this is an investigations and 
oversight subcommittee of the full Government Reform Committee 
of the House of Representatives. In that regard, we do swear in 
all our witnesses, which we will do in just a moment.
    Also, if you have any lengthy statement, any statement for 
the subcommittee, oral presentation beyond 5 minutes, I ask 
that you request that it be submitted to the record and will be 
done so by unanimous consent. Also, any additional data, 
background that you would like to be made part of the record, 
if you request through the Chair that also will be added to the 
proceedings and your statement today.
    With that, if you could please rise and be sworn.
    Raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. This was answered in the affirmative. We'll let 
the record reflect that.
    Welcome this morning. I think first we'll turn to Judge W. 
Royal Furgeson, Jr., who is the U.S. district court, western 
district of Texas.
    Welcome, sir. You are recognized.

   STATEMENTS OF JUDGE W. ROYAL FURGESON, JR., U.S. DISTRICT 
  COURT, WESTERN DISTRICT OF TEXAS; JOSEPH D. KEEFE, SPECIAL 
AGENT IN CHARGE, SPECIAL OPERATIONS DIVISION, DRUG ENFORCEMENT 
 ADMINISTRATION; ED LOGAN, SPECIAL AGENT IN CHARGE, SAN DIEGO, 
 U.S. CUSTOMS SERVICE; AND LUIS E. BARKER, CHIEF BORDER PATROL 
         AGENT, EL PASO SECTOR, U.S. BORDER PATROL, INS

    Judge Furgeson. Thank you very much, Mr. Chairman. My name 
is Royal Furgeson, and I am a U.S. district judge for the 
western district of Texas. I was one of the judges who came 
last month to Congress to talk with the Congress about the 
impact of the southwestern border initiative on the Federal 
courts on the border.
    As you well mentioned in your report, the five judicial 
districts on the border are now handling 26 percent of all 
criminal filings in the U.S. courts. That is basically 5 
percent of the Federal courts handling 26 percent of the 
criminal filings.
    If the trend continues, we estimate that this 5 percent may 
be handling as much as a third of all criminal filings within 
several years.
    Let me give you just a brief indication of the impact your 
initiative has had on my court. By the way, I do have a written 
statement that I would request be put in the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Please proceed.
    Judge Furgeson. Thank you, sir.
    I am the presiding judge over the Pecos Division of the 
Western District of Texas. It is one of seven divisions in the 
Western District. Three of our divisions are on the border--El 
Paso, Del Rio, and Pecos. The Pecos Division covers 430 miles 
of border with Mexico. It includes the Big Bend National Park, 
which is the fourth largest national park in the 48 States, the 
lower 48.
    In 1995, the first year that I presided over the criminal 
docket of the Pecos division, there were 45 criminal cases 
filed. That is about the time that the southwest border 
initiative began. Since the start of the southwest border 
initiative, my docket has grown considerably. Last year, 1999, 
there were 386 criminal cases filed in the Pecos division. That 
is an 800 percent increase in 4 years.
    In the first 5 months of this year, 252 criminal cases have 
been filed in the Pecos division. That comes to 50 cases a 
month. I believe there will be over 600 cases filed in the 
Pecos division this year. That will be a 55 percent increase in 
criminal filings over last year.
    Last year, I and the two judges to my west who handle El 
Paso, TX, presided over an average, among the three of us, of 
about 750 cases. The average criminal case filings for district 
judges last year in America was 74. Right now our three courts 
are handling something like 10 times the number of average 
filings for judges across the United States.
    I think the goal of the border initiative was to stop drug 
smuggling and drug trafficking. I think that goal is well 
underway. I don't know if these gentlemen to my left believe 
they have met the goal yet, but they are doing an impressive 
job of interdicting drug smuggling, and those drug smuggling 
cases are then coming into our courts in record number.
    What we have been trying to tell the Congress, Mr. 
Chairman, and what we told the Congress when we came last 
month, was that this increase in law enforcement on the border 
is having an enormous impact on the judiciary on the border, 
and we are really under an incredible stress attempting to 
handle the cases that are coming into our courts.
    Our goal is to handle them and handle them as effectively 
and efficiently as we can, but with the enormous addition of 
cases in our courts, we are under enormous strain.
    We have asked for additional funding for the courts on the 
border. That is a part of our request for the total budget of 
the judiciary this year, and we have also asked for new 
judgeships and other kinds of support, and we have been very 
gratified by the response we have received.
    Thank you, sir.
    Mr. Mica. Thank you, Judge Furgeson.
    [The prepared statement of Judge Furgeson follows:]
    [GRAPHIC] [TIFF OMITTED] T2582.006
    
    [GRAPHIC] [TIFF OMITTED] T2582.007
    
    [GRAPHIC] [TIFF OMITTED] T2582.008
    
    [GRAPHIC] [TIFF OMITTED] T2582.009
    
    [GRAPHIC] [TIFF OMITTED] T2582.010
    
    [GRAPHIC] [TIFF OMITTED] T2582.011
    
    [GRAPHIC] [TIFF OMITTED] T2582.012
    
    Mr. Mica. We'll suspend questions until we have heard from 
all of the witnesses on this panel.
    We will now hear from Joseph D. Keefe, and he is the 
special agent in charge of special operations division of DEA, 
our Drug Enforcement Agency.
    Welcome, sir. You are recognized.
    Mr. Keefe. Mr. Chairman, I appreciate this opportunity to 
appear before the subcommittee today to discuss the issue of 
drug trafficking along the southwest border.
    My submitted testimony will provide you with objective 
assessment of the law enforcement issues surrounding the drug 
threat posed by international drug trafficking organizations. 
My overall remarks today will be limited to the Mexican heroin 
trade and our response to this threat.
    The organized crime syndicates in Mexico have grown 
significantly more powerful and wealthy over the last 6 years. 
Their position in the cocaine trade has been significantly 
enhanced by the Colombians payment in cocaine for providing 
transportation services for drug lords. These trafficking 
organizations have accrued billions of dollars in drug profits 
annually and now rival their Colombian counterparts in power, 
wealth, and influence.
    The Mexican organized crime syndicates are not satisfied 
with their billions in cocaine profits. They also seek profits 
in the heroin trade. Mexican heroin has become the second-
largest source used in the United States.
    Organized crime syndicates based in Mexico now dominate the 
marketplace in the west and hold a substantial share of the 
midwest market and are actively pursuing markets on the East 
Coast. Historically, traffickers from Mexico use their 
proximity and access to the southwest border to their 
advantage. After safely smuggling heroin across the border, 
these organizations routinely stockpile the heroin in locations 
such as San Diego and Los Angeles, CA. The heroin is 
subsequently distributed in pound quantities throughout the 
United States.
    By keeping quantities small, traffickers minimize the risk 
of losing significant quantities of product to U.S. law 
enforcement. In addition, once the heroin reaches the United 
States, these traffickers rely upon well-entrenched drug 
smuggling and distribution networks to distribute their heroin.
    The popularity of black-tar heroin has increased as its 
purity has soared. Traditionally, Mexican heroin, such as 
Mexican brown or black-tar heroin, was recognized as inferior 
and less pure grade of heroin; however, recent investigations 
such as Operation Tar Pit have revealed purity levels of black-
tar heroin as high as 84 percent, explaining its increased 
popularity.
    Heroin abuse is not restricted to the inner city poor or 
the Hollywood elite. Middle class teenagers and young adults in 
places like Orlando, FL; Plano, TX; and Rio Arriba County, NM 
have fallen prey to heroin addiction as a consequence of their 
experimentation with high purity dosages of this dangerous 
narcotic. Tragically, Rio Arriba County, NM, had the highest 
per capita heroin overdose rate in America. Between 1995 and 
1998, the small town of Chimayo, located in Rio Arriba County, 
suffered over 85 deaths attributed to high-purity black-tar 
heroin.
    In order to combat drug production and trafficking networks 
operating along the southwest border, DEA, in concert with 
other Federal agencies, established the southwest border 
initiative, an integrated, coordinated law enforcement effort 
designed to attack the command and control structure of 
organized criminal operations associated with these criminal 
organizations.
    The most effective way to dismantle these drug traffic 
organizations is through multi-agency cooperative 
investigation. The special operations division enhances 
agencies' ability to dismantle these organizations. The special 
operations division is a joint national coordinating and 
support entity comprised of agents, analysts, and prosecutors 
of the Department of Justice, U.S. Customs, Federal Bureau of 
Investigation, Drug Enforcement Agency, and Internal Revenue 
Service. Its mission is to coordinate and support regional and 
national criminal investigations and prosecutions against drug 
trafficking organizations that threaten our Nation.
    These cooperative investigations have yielded tremendous 
results, as evidenced by the success of Operation Impunity, 
Operation Green Air, and most recently Operation Tar Pit.
    Operation Tar Pit was a year-long investigation which 
resulted in a complete disruption and dismantling of the 
largest black-tar heroin organization operating in the United 
States to date. The operation culminated in the arrests of over 
225 suspects and the seizure of 64 pounds of black-tar heroin.
    The investigation revealed that this organization was 
responsible for smuggling and distributing approximately 80 to 
100 pounds of black-tar heroin a month into the United States. 
In addition, Operation Tar Pit proved that Mexican traffickers 
were, in fact, attempting to expand their traditional western 
markets into the more-lucrative high purity white heroin market 
in the eastern part of the Nation currently controlled by 
Colombian-based traffickers.
    This criminal organization established heroin drug 
trafficking sales as far west as Hawaii and as far east as New 
Jersey.
    Operation Tar Pit also revealed this organization's 
ruthlessness and total disregard for human life. During the 
investigation it was learned that these criminals targeted 
methadone clinics and preyed on heroin addicts who were seeking 
help for their heroin addiction. Their callous marketing 
efforts were responsible for driving recovering addicts back 
into the cycle of heroin use.
    Drug trafficking organizations operating along the 
southwest border continue to be one of the greatest threats to 
communities across the Nation. The DEA is deeply committed in 
our efforts to identify, target, arrest, and incapacitate the 
leadership of these criminal drug trafficking organizations.
    Cooperative investigations such as Operation Tar Pit serve 
to send a strong message to all drug traffickers that the U.S. 
law enforcement community will not sit idle as these criminal 
organizations threaten the welfare of our citizens and the 
security of our towns and cities.
    Mr. Chairman, thank you for the opportunity to appear 
before your subcommittee. I will be happy to answer questions 
at the right time, sir.
    We also have a short video to show you at some point.
    Mr. Mica. How long is the video?
    Mr. Keefe. Just about a minute, sir.
    Mr. Mica. Why don't we just go ahead and show that now at 
the end of your testimony, if you are ready.
    Mr. Keefe. Mr. Chairman, this video shows an example of how 
they were moving--in Operation Tar Pit, how the traffickers 
were moving pounds of black-tar heroin within the United 
States.
    An example here is a boom box often used by a typical 
Mexican female, often juvenile, would often carry a boom box on 
a bus and travel from Los Angeles, CA, for example, to 
Columbus, OH.
    The other example is a rice cooker, which was shipped by 
mail, which also contained approximately about a pound of 
black-tar heroin which would be shipped from the West Coast to 
whichever city it was going to, and they did this continuously 
throughout this investigation.
    [Videotape presentation.]
    Mr. Keefe. You can see the black-tar heroin contained in 
the packets.
    Mr. Mica. In our hearing on Monday on Sioux City, IA, local 
enforcement officials described how they set up an auto parts 
business and were shipping--I think it was meth in this case--
into the Sioux City area, the tri-county area, tri-State area 
up there, and so sophisticated that they actually created this 
bogus business. When they went after them the business 
evaporated. I think that was also tied to an operation in 
California.
    They were setting up false businesses and then shipping the 
stuff in through that, similar fashion.
    Thank you.
    [The prepared statement of Mr. Keefe follows:]
    [GRAPHIC] [TIFF OMITTED] T2582.013
    
    [GRAPHIC] [TIFF OMITTED] T2582.014
    
    [GRAPHIC] [TIFF OMITTED] T2582.015
    
    [GRAPHIC] [TIFF OMITTED] T2582.016
    
    [GRAPHIC] [TIFF OMITTED] T2582.017
    
    [GRAPHIC] [TIFF OMITTED] T2582.018
    
    Mr. Mica. We'll turn now to Mr. Ed Logan, special agent in 
charge in San Diego, U.S. Customs Service.
    Welcome, sir. You are recognized.
    Mr. Logan. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to appear before you today to 
discuss the U.S. Customs Service's efforts in protecting the 
southwest border.
    As the committee is well aware, the Customs Service, along 
our border with Mexico, must work in a multidimensional threat 
environment. While we have positioned most of our personnel and 
resources facing south along the 1,800-mile land border that we 
share with Mexico to screen persons, conveyances, and goods 
moving north, we also must be watchful on southbound trade and 
traffic which may be carrying weapons, undeclared currency, 
hazardous materials, controlled technology, stolen cars, or 
fugitives from justice leaving the United States.
    At the same time, due to our geography, we must also look 
west and east, where the Pacific Ocean and the Gulf of Mexico 
provide yet another avenue for drug smugglers long schooled in 
the ways of moving narcotics by sea.
    We also must be able to look up and monitor our skies, 
which became in the 1970's and the 1980's the quickest way for 
drugs to enter the country.
    Last, all the agencies along the border must be ever 
vigilant to the presence of tunnels, which have been created to 
move both narcotics and illegal aliens into the United States.
    Within California, in my area of operations, in 1999 
Customs encountered over 30 million passenger vehicles, 95 
million persons, almost a million trucks, thousands of pleasure 
craft, and cleared for entry into the United States commerce 
over $12 billion of trade only from Mexico.
    To meet our threat, we have deployed personnel, technology, 
air, and vessels to screen the border environment, whether that 
be on land, in the air, or at sea. All of these pose unique 
challenges.
    Screened from this enormous haystack of people and 
conveyances, the Customs Service has seized 192 tons of 
marijuana, 5 tons of cocaine, 1,164 pounds of methamphetamine, 
and 226 pounds of heroin, most of it black tar, along with 
arresting over 4,000 drug smugglers.
    In 8 short years, we have witnessed drug seizures rise at 
our California ports of entry from 370 in 1991 to over 4,000 in 
1998.
    As I have previously testified before this committee in 
March, last year over 58 percent of all detected drug smuggling 
events at United States ports of entry along the Mexican border 
occurred in California. While Customs is responsible for 
enforcing sections of the U.S. code on behalf of 60 other 
Federal agencies and routinely conducts a wide variety of 
investigative activity, Commissioner Kelly has clearly stated 
that interdicting narcotics and dismantling drug smuggling 
organizations is our highest priority.
    The windows of opportunity for would-be drug smugglers are 
staggering, and the number climbs each year as the benefits of 
NAFTA continue to increase trade with our southern neighbor, 
which rose 115 percent in California from fiscal year 1994 to 
1999.
    Our efforts to deal with our ever-increasing work load may 
be characterized as follows: continuous coordination with 
Federal, State, and local resources through coalition law 
enforcement; the utilization of technology; effective 
intelligence gathering and sharing; and proactive investigative 
operations targeted drug smuggling organizations.
    The increased availability of x-ray systems and dedicated 
intelligence and investigative efforts at our commercial 
facilities are already resulting in increased seizures of 
narcotics. For example, this fiscal year to date at Otay Mesa 
and Tecate there have been 44 significant seizures of marijuana 
concealed in trucks, averaging approximately 1,400 pounds each. 
This is up from 6 seizures in 1995 that averaged approximately 
600 pounds, and 30 the previous year that averaged 960 pounds.
    We are seeing a disturbing trend toward the increased use 
of commercial trucks, including concealment in false walls and 
roofs, as well as commingled in legitimate commerce.
    Black-tar heroin, on the other hand, is much more difficult 
to detect as it enters the United States from Mexico. While 
there are some poly drug smuggling organizations which move 
heroin, cocaine, marijuana, and methamphetamine, our recent 
experience in intelligence tell us that there are highly 
organized Mexican traffickers who specialize in smuggling 
black-tar heroin into the United States and distributing it in 
communities across the United States. DEA's highly successful 
Operation Tar Pit is vivid confirmation.
    Heroin couriers by the hundreds move stealthily through the 
southwest border, many carrying relatively small amounts 
concealed on and in their bodies. Other couriers move it in 
larger quantities in vehicles, usually between 15 to 20 pounds, 
concealed in specially constructed compartments and modified 
car components like manifolds and engine blocks. Often the only 
way we can confirm the presence of heroin in vehicles, even 
when we have advance intelligence, is to x ray. In many cases 
the heroin is so well integrated into the vehicle we have to 
partially destroy the car to remove the drugs.
    This is why interagency intelligence sharing on drug 
smuggling operations and organizations and techniques is so 
critical to effective counter-narcotics operations. While 
interdicting the drugs at the border is important, our 
controlled deliveries and investigative bridge strategy enables 
the Customs Service, oftentimes in partnership with DEA, the 
FBI, and State and local agencies, to identify the scope of the 
smuggling and distributing organizations transiting our border 
for heartland, U.S.A., and all other major metropolitan cities.
    Those of us who work on the United States-Mexican border 
know that it is an environment in which drug smuggling 
routinely infiltrates legitimate trade and commerce. The 
traffickers and smugglers are experienced, well-financed, often 
well-trained, and, sadly, highly effective in their efforts.
    In conclusion, we take pride in our law enforcement 
coalition as the Customs Service is not alone along the border. 
We remain shoulder-to-shoulder with all of the agencies, 
Federal and State, who have resources dedicated to this 
important effort. I am proud to represent the Customs Service 
in providing insights into the hard work being conducted by the 
men and women of the Customs Service every day along the 
border.
    I have a longer statement, Mr. Chairman, and I would 
request that it be submitted.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Thank you for your testimony.
    Mr. Logan. Thank you, sir.
    [The prepared statement of Mr. Logan follows:]
    [GRAPHIC] [TIFF OMITTED] T2582.019
    
    [GRAPHIC] [TIFF OMITTED] T2582.020
    
    [GRAPHIC] [TIFF OMITTED] T2582.021
    
    [GRAPHIC] [TIFF OMITTED] T2582.022
    
    [GRAPHIC] [TIFF OMITTED] T2582.023
    
    [GRAPHIC] [TIFF OMITTED] T2582.024
    
    [GRAPHIC] [TIFF OMITTED] T2582.025
    
    [GRAPHIC] [TIFF OMITTED] T2582.026
    
    Mr. Mica. I will now turn to Luis E. Barker. Mr. Barker is 
chief of the border patrol, El Paso sector of the U.S. Border 
Patrol, INS.
    Welcome, sir. You are recognized.
    Mr. Barker. Good morning, Mr. Chairman and distinguished 
members of the subcommittee. I am Luis Barker, chief patrol 
agent of the El Paso sector of the U.S. Border Patrol. I am 
pleased to have the opportunity to appear before the 
subcommittee today to speak to you about the Border Patrol and 
our narcotic enforcement efforts along the southwest border.
    The El Paso sector encompasses 125,000 square miles of 
territory, including the entire State of New Mexico and two 
counties in west Texas. We have 12 Border Patrol stations and 6 
permanent Border Patrol checkpoints under our jurisdiction. 
Currently, we have approximately 1,000 agents assigned to the 
El Paso sector, one of the largest geographical sectors in the 
country. The topography of the El Paso sector is quite diverse. 
It includes 180 land border miles and 109 river boundary miles.
    The El Paso sector agents, like those across the country, 
diligently perform their duties every day in an environment 
that is becoming more dangerous and threatening because of 
alien and narcotics smugglers. Border Patrol agents protect our 
national security, are arresting individuals who enter the 
country illegally and who may pose a criminal threat to our 
communities.
    Before 1993, there was no comprehensive unified plan for 
controlling this 2,000-mile frontier. The number of Border 
Patrol agents was insufficient to get the job done, and those 
we had were not provided all the equipment and technology 
necessary to do the job. As a result, illegal immigrants and 
drug smugglers came across the border with little fear of being 
apprehended. The Border Patrol management strategy we developed 
to deal with the problems on the southwest border was 
comprehensive and multi-year. The strategy is simply a call for 
prevention through deterrence--that is, elevating the risk of 
apprehension to the point where immigrant and drug traffickers 
consider it futile to enter the United States illegally.
    That concept first took shape in late 1993 in El Paso with 
Operation Hold the Line. The operation was designed to reduce 
the alarming increase in illegal entries and crime in the 
metropolitan El Paso area. Approximately 400 agents teamed 
together on the border for 25 miles. El Paso sector was able to 
reduce apprehensions by more than 70 percent and reduced crime 
by 15 percent almost overnight. For the first time, this border 
community saw an effective integration strategy could make a 
difference, as well as improve the quality of life in New 
Mexico and west Texas.
    These strategies still remain in effect today, although not 
without additional challenges. Because of the effectiveness of 
Hold the Line in west Texas, areas in southern New Mexico are 
now being impacted heavily. Some illegal immigration shift is 
now being felt in areas in New Mexico such as Deming, Columbus, 
and Lordsburg. These southern New Mexico communities are 
experiencing a trend of increasing apprehension and smuggling 
activity. In some areas, agents are encountering large groups 
of immigrants, as large as 75 to 100. Alien smugglers have 
increased their illegal activity and subsequent exploitation of 
people who are willing to pay them.
    In addition to these challenges, there is also the constant 
element of danger for agents who are tasked with the 
responsibility of interrupting smuggling episodes. For the 
first time, we are seeing a consistent pattern of narcotics 
smuggling in southern New Mexico via backpacking and horseback 
in the outlying New Mexico areas. The interception of narcotics 
loads is a daily occurrence at traffic checkpoints in New 
Mexico. This past Sunday, agents working a checkpoint near 
Alamogordo seized more than 1 ton of marijuana in a U-Haul 
truck bound for Florida. The driver, as it turned out, had an 
outstanding warrant from Florida on aggravated charges with a 
firearm. This scenario is not uncommon.
    Our agents remain vigilant 24 hours a day and now have at 
their disposal technology that includes surveillance cameras, 
night vision equipment, aircraft, and newly introduced vehicle 
barriers designed to prevent drive-through narcotic loads from 
entering the United States at specific points along the border.
    In the immediate El Paso area, we are also seeing more 
ingenuity by those who persist in breaking immigration laws. 
Illegal immigrants and drug couriers come in and utilize storm 
drainage tunnels, which consists of an entire network of 
underground entranceways into the United States. While our 
agents are now stepping up surveillance on tunnel networks, it 
is a problem that persists.
    Drug interdiction remains a top priority for the El Paso 
sector agents. In New Mexico, alone, our agents have made 634 
seizures this current year. On a national scale since 1993, we 
have more than doubled the number of Border Patrol agents to 
over 8,600, with the vast majority stationed on the southwest 
border. We have increased their effectiveness by providing 
state-of-the-art equipment to our agents, such as infrared 
scopes, underground sensors, and other force-multiplying 
equipment and technology. With congressional support, we are 
improving our enforcement infrastructure along the border by 
installing fences and anti-drive-through barriers and 
constructing all-weather roads to enhance mobile patrolling 
efforts.
    Although the Border Patrol's primary mission is to enforce 
immigration laws of this country, a national drug control 
strategy acknowledges the Border Patrol as a primary Federal 
interdiction agency along our land border with Canada and 
Mexico. Strategically, the more effective the Border Patrol is 
at deterring illegal entry of any kind, the more effective are 
the counter-drug strategies of the inspection agencies at the 
ports of entries and the investigative agencies in the 
interior. The Border Patrol specifically focuses on drug 
smuggling at our ports of entry.
    On March 25, 1996, the INS and DEA signed a memorandum of 
understanding which outlines the authorities, responsibilities, 
and general procedures for the Border Patrol to follow in its 
drug interdiction activities. The Border Patrol also 
participates in the INS and U.S. Customs border coordination 
initiative. As a result of cooperation and good working 
relationship among INS, DEA, and the U.S. Customs Service, drug 
investigation efforts and interdictions are on the rise.
    Mr. Chairman, the men and women of the U.S. Border Patrol 
are proud to be serving their country as they enforce our 
Nation's immigration laws. I thank you for allowing me the 
opportunity to appear before you today, and I will be happy to 
answer any question that you might have.
    I have a longer version of my oral comments.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record, so ordered.
    Thank you.
    [The prepared statement of Mr. Barker follows:]
    [GRAPHIC] [TIFF OMITTED] T2582.027
    
    [GRAPHIC] [TIFF OMITTED] T2582.028
    
    [GRAPHIC] [TIFF OMITTED] T2582.029
    
    [GRAPHIC] [TIFF OMITTED] T2582.030
    
    [GRAPHIC] [TIFF OMITTED] T2582.031
    
    [GRAPHIC] [TIFF OMITTED] T2582.032
    
    [GRAPHIC] [TIFF OMITTED] T2582.033
    
    [GRAPHIC] [TIFF OMITTED] T2582.034
    
    Mr. Mica. I thank each of the witnesses on this first panel 
for your testimony.
    Let me start with Mr. Keefe. DEA produces heroin signature 
identification of drugs and heroin coming into the United 
States and can identify pretty accurately where heroin is 
coming from; is that correct?
    Mr. Keefe. Yes, sir.
    Mr. Mica. In the last report that has been provided to our 
subcommittee, it indicated a 20 percent increase in 1 year, and 
that is, I think, from 1997, I think it is, to 1998. When will 
you produce again another assessment of your signature on 
heroin?
    Mr. Keefe. I'll have to get you that answer, Mr. Chairman. 
I don't know----
    Mr. Mica. You don't know?
    Mr. Keefe [continuing]. Exactly when it will come out.
    Mr. Mica. Is that accurate?
    Mr. Keefe. I just understand, sir, that one should be out 
in 2 months, approximately.
    Mr. Mica. In 2 months?
    Mr. Keefe. Yes, sir.
    Mr. Mica. This is a pretty dramatic increase in any kind of 
narcotic. In fact, it's a pretty startling increase. I've never 
seen anything that dramatic as far as a production level. Have 
you?
    Mr. Keefe. No, sir. Not with the Mexican heroin. No, sir.
    Mr. Mica. And you are saying that also this is a very 
deadly heroin; is that correct?
    Mr. Keefe. Because of the high purity.
    Mr. Mica. And what was the level? You said you've 
identified some of this at what percentage of purity?
    Mr. Keefe. The highest we saw in Operation Tar Pit was 84 
percent.
    Mr. Mica. That's 84 percent?
    Mr. Keefe. Yes, sir.
    Mr. Mica. And that probably is accounting for the deaths. 
We heard the deaths, I think, along the border in Chimayo, that 
one New Mexican border town, probably in my community in 
Orlando, and other areas. Is the high purity what is killing 
them?
    Mr. Keefe. Yes, sir.
    Mr. Mica. We are tracing this back without question to 
Mexico, also, the black tar?
    Mr. Keefe. That's correct, sir. We know it was produced, 
grown in Mexico, made into heroin in Mexico, then smuggled 
across into the United States.
    Mr. Mica. What would you attribute to the dramatic 
increase? Is it lack of U.S. enforcement going after this, or 
is it laxness on the part of the Mexicans to bring production 
under control?
    Mr. Keefe. Well, I----
    Mr. Mica. I mean, you're increasing your enforcement 
efforts. Obviously, something is happening on the other end if 
we are getting this significant production.
    Mr. Keefe. I think the Mexicans, in the heroin field, sir, 
are competing with the Colombians. They have learned from the 
Colombians in marketing. They've learned from the Colombians 
through dealing with the cocaine.
    Mr. Mica. Well, that's the marketers, but I'm talking about 
the officials in charge in Mexico. It doesn't appear this is a 
priority to go after the production. Would that be correct? And 
we're seeing more of this stuff coming in from Mexico, a 
dramatic increase.
    Now, what is most disturbing, is this week, I received--I 
guess, Madruso, the Attorney General, had announced that the 
seizures are down of cocaine. That's what he publicly 
announced, I think, this past week. Does that confirm what 
you've heard?
    Mr. Keefe. Yes, sir.
    Mr. Mica. This is Mexican seizures.
    Mr. Keefe. Mexican, yes, sir.
    Mr. Mica. Now, our heroin seizures are up, right?
    Mr. Keefe. Yes.
    Mr. Mica. Our cocaine seizures are up?
    Mr. Keefe. I believe so. Yes.
    Mr. Mica. Yes. And theirs are down. At least their 
production is up of heroin.
    Mr. Keefe. Yes, sir.
    Mr. Mica. And their seizures of cocaine are down. Do you 
think that you're having any less cocaine transiting through 
their country?
    Mr. Keefe. No, sir.
    Mr. Mica. What disturbs me, too, is the marketing that 
we've heard. It appears that they are actually marketing black-
tar heroin in the United States; is that----
    Mr. Keefe. That's correct, sir.
    Mr. Mica. And was it you, Mr. Logan who testified that they 
are even targeting methadone clinics? Or was that you?
    Mr. Keefe. That was me, sir.
    Mr. Mica. This is the first time I've heard that. I've 
heard marketing, almost giving out samples to young people for 
potential growing the user market, but you're saying they're 
even going now after methadone clinics?
    Mr. Keefe. They would go into the areas of the methadone 
clinics--obviously, the people going there were heroin users at 
one time, or whatever--and target those people with, as you 
mentioned, free samples, for instance, as they've moved into 
new cities throughout the United States.
    Mr. Mica. And you said--I think it was you that testified--
just correct me if I am wrong--80 to 100 pounds a month?
    Mr. Keefe. Yes.
    Mr. Mica. Is that seizures, or just an estimate coming 
across?
    Mr. Keefe. That's what we estimated this group was moving 
for the past year in Operation Tar Pit.
    Mr. Mica. Judge Furgeson, you are in the business of 
bringing to justice these folks. Are your courts--now, you are 
a Federal court officer?
    Judge Furgeson. Yes, sir.
    Mr. Mica. Are you prosecuting people who are using small 
amounts of narcotics?
    Judge Furgeson. We see a wide range, Mr. Chairman.
    Mr. Mica. Tell me, most people think that the courts are 
now going after someone who is smoking a marijuana joint or 
that is using a small-time user. Is that what you're dealing 
with?
    Judge Furgeson. That's not the case at all. My first year I 
was in El Paso----
    Mr. Mica. Describe the majority of cases you are handling, 
because a lot of people--in fact, I went to bed last night 
watching somebody spiel off about how this is just a treatment 
problem, and if we treat these folks everything will be fine. I 
want to know if your folks are in that category, that they just 
need a little treatment and the problem will go away.
    Judge Furgeson. Well, my first year in El Paso I had a 2-
ton cocaine case. It was two semi trucks----
    Mr. Mica. Was that for personal use?
    Judge Furgeson. No, sir.
    Mr. Mica. Alright. [Laughter.]
    Judge Furgeson. No, sir. And the defendants were 
Colombians. I sit in three different places. El Paso is a very 
large cocaine corridor, and I think the great percentage of 
cases coming into El Paso are large cocaine shipments.
    The Pecos division covers the Sierra Blanca checkpoint, 
which is manned by the Border Patrol on I-10, and there we see 
heroin, cocaine, and methamphetamine. Not too long ago I had an 
11-pound methamphetamine case, which I think is a substantial 
amount of methamphetamine.
    In the Pecos division, the Big Bend area, I see very large 
amounts of marijuana, 1,000-pound, 1,500-pound cases of 
marijuana. There are smaller cases, as well, 100 pounds, 200 
pounds.
    Mr. Mica. Well, smaller cases, again--personal use?
    Judge Furgeson. There is no personal use case in my court. 
None.
    Mr. Mica. So we're not clogging the courts with people who 
need treatment and the small-time abusers or addicts?
    Judge Furgeson. There are----
    Mr. Mica. I don't want to put words in your mouth. Tell me 
what you are seeing in your court.
    Judge Furgeson. I'm not seeing anything----
    Mr. Mica. Because people don't want to be--they tell me 
they don't want to be spending money going after people who are 
small-time users or an addict who needs treatment. Is that what 
the Federal courts are doing? Are you harassing these people 
badly in need of treatment?
    Judge Furgeson. There are no personal use cases in my 
court. I mean, it is not close. Probably the closest thing to a 
small amount of smuggling comes from what we call 
``backpackers,'' people who are convinced to put 40, 50, 60 
pounds of marijuana on their back in groups of 5, 10, 15, and 
they backpack that marijuana across wide tracts of dessert.
    Mr. Mica. And that's the majority of your cases?
    Judge Furgeson. No. That is the cases where people are 
bringing in smaller amounts. They're bringing----
    Mr. Mica. Still trafficking?
    Judge Furgeson. Yes, sir.
    Mr. Mica. The other thing I hear repeatedly is we've got to 
do away with minimum mandatory. We've held hearings on minimum 
mandatories, that our Federal laws are just too tough on these 
guys. What is your advice to the subcommittee? Should we throw 
away the tough sentencing guidelines?
    Judge Furgeson. I like the guidelines because I think the 
guidelines build uniformity into our system. Now, I'm a 
younger--I'm a newer judge. I have been on the bench 6 years. 
Some judges with longer terms do not like the guidelines, but I 
think the guidelines are helpful.
    I, like all judges, would like to have more flexibility in 
sentencing, and I do appreciate the safety valve----
    Mr. Mica. That's what I was going to ask you about. Most 
people aren't aware, but Congress also gave a safety valve, so 
there is an opportunity to give people a chance and gives you 
some flexibility in this process.
    Judge Furgeson. Absolutely. And the safety valve provisions 
in the sentencing guidelines are very helpful to Federal 
judges, very helpful.
    Mr. Mica. You talked about prosecution and your need--I 
mean, for additional resources, the incredible strain this has 
created on the court system there. Is it also affecting other 
services, like the U.S. Marshals?
    Judge Furgeson. The work of the marshals on the border has 
increased, I think, about 100-plus percent in 4 or 5 years, and 
the resources, the additional personnel and staffing, has 
increased 15 percent.
    The work the U.S. Marshals are doing on the border in my 
opinion is heroic, and it is done under very daunting 
circumstances. I would really hope that the Attorney General 
will consider a substantial increase in marshal personnel for 
the border. What those men and women are trying to do is close 
to impossible.
    Mr. Mica. The other thing that we've noticed--I have been 
involved in this back in the 1980's with Senator Hawkins when 
we did a lot in starting the war, a real war on drugs, and we 
did the Andean strategy, the drug certification, Vice 
President's task force, and other things that made a big 
difference, and we started seeing a dramatic decline in drug 
use and going after illegal narcotics, but the beginning of 
this administration we actually saw, I think, in 1992, about 
29,000 drug prosecution cases. Then they started dropping, 
dropping, dropping drug prosecution.
    We started raising hell with them back in 1995 when we took 
over, and they started getting back. They're about to the 1992 
level of going after. It sounds like you are doing most of the 
work.
    My point is, now I'm getting back as chairman of the 
subcommittee reports that sentencing is going down, down, down, 
prosecution is going up. Do you find that to be the case in 
your jurisdiction?
    Judge Furgeson. You mean that people are getting lesser 
sentences?
    Mr. Mica. Lesser sentences. Yes.
    Judge Furgeson. I follow the guidelines, and I would be 
very surprised--I don't know what my statistics are. I sentence 
500 or 600 people a year, maybe more than that, maybe up to 700 
or 800 now, but I follow the guidelines, and so I am not clear 
that the sentences are reducing in severity.
    Mr. Mica. Well, look at your jurisdiction and maybe you 
could provide us with some of that specific information.
    Judge Furgeson. I would be glad to do that.
    Mr. Mica. We would appreciate that.
    Let me turn now to the Border Patrol. You know, one of the 
disturbing things we have heard here is threats on our agents, 
and some of these drug traffickers, particularly on the Mexican 
side, have become pretty emboldened, threatening our agents. 
There have been reports of bounties. What is the response of 
the agency to those kinds of threats that we've heard of?
    Mr. Barker. Every threat is taken seriously and they are 
investigated by the FBI. Once we get them, we make sure that 
the alert is put out. These agents are well capable of 
protecting themselves, and we make sure that, even in those 
situations where they are not teamed up, that help is close by 
in the event that it does occur.
    Mr. Mica. What kind of penalties are there if there is an 
attack or somebody goes after one of our agents? And do we have 
a reward system to so-called ``return the favor''?
    Mr. Barker. There is no reward system, per se, but, again, 
these agents certainly are capable of protecting themselves 
and, again, we take them all seriously, and we make provisions 
to make sure that there is backup in the event that these 
agents are attacked.
    We are seeing that in many forms, not in terms of a bounty, 
but the attacks on these agents both in the form of rocks 
thrown and shots fired at our agents. Just in a little bit over 
a month we had an agent pursuing a load back to the border, 
back to the river, and when he got to the place where the 
backpackers had brought the drugs into the United States they 
were met by a person who was laying in wait who fired a shot 
through the windshield. Fortunately, the agents--it was during 
the day time--saw the person level the weapon and got down. It 
went through the windshield on the driver's side.
    We are seeing that a lot more. We are seeing it in terms of 
rockings where they are protecting loads once they are 
intercepted and they try to make their way back across the 
border.
    Mr. Mica. So, compared to 2 or 3 years ago, what is the 
situation with acts of violence against Border agents?
    Mr. Barker. It has gotten worse. And, again, not all of 
them are firearms.
    Mr. Mica. Are you all dealing with Mexican officials on the 
other side and asking for cooperation?
    Mr. Barker. Yes. We do that on a regular basis.
    Mr. Mica. What's the response?
    Mr. Barker. The response is mixed right now, mainly because 
they are introducing this new police on the border, and we have 
had the contacts with them, and sometimes they do show up, 
sometimes they don't.
    One of the problems is identifying the location both in 
Mexico and in the United States where someone can get there in 
a reasonable period of time. We have engaged with them to map 
these locations, so when we identify a place they'll know 
exactly where it is.
    The response time is the critical issue, and that's the 
part that we are trying to get our arms around, because if we 
call them and they are not able to respond almost immediately, 
it is almost futile.
    Mr. Mica. Mr. Logan, you talked about the difficulty of 
going after some of these drugs that are coming in across the 
border from Mexico, the more sophisticated ways to disguise 
narcotics. What is the progress that Customs is making in 
getting equipment and technology in place to deal with this 
problem?
    Mr. Logan. Well, for example, at Otay we have two, a Vacis 
system and a standing prototype x ray. Another Vacis is on tap, 
I believe, for August. There's also some technology being done 
related to submarine warfare called a ``sonar pinging device,'' 
which we hope and anticipate may have some success in 
identifying loads in gas tanks, as well as tires.
    Gas tanks, Mr. Chairman, account for approximately 26 to 30 
percent of all narcotics loads in vehicles that come across, so 
we think that advantage will help us.
    The technology is vital and it is crucial, but it never 
replaces a trained investigator or a trained inspector, inter-
agency cooperation, and intelligence, which clearly continues 
to be the most helpful, whether it is electronic means, wire 
tap information, informant information, interagency 
investigations, like tar pit--continue to be vital in trying to 
find that needle in the haystack. The haystack is growing 
immensely.
    Mr. Mica. We have been down to the southwest border, and we 
have conducted hearings both on the border and reviews of what 
is going on, and also back here in Washington. One of the 
recommendations was that we have some type of a border 
coordinator or border czar. Has the administration made any 
progress, to your knowledge, on appointing a coordinator, 
someone to help make certain those efforts all come together? 
Do you know anything about this Mr. Logan, Mr. Keefe, Mr. 
Barker?
    Mr. Logan. Well, there continues always to be interagency 
cooperation. To my knowledge, there has not been a coordinator 
named.
    Mr. Mica. No progress on that? Mr. Barker.
    Mr. Barker. Yes, there is a border coordinator. Prior--it 
was the U.S. Attorney in the State of New Mexico, but he has 
since left and another one was appointed, but I agree with Mr. 
Logan. I think the interagency cooperation on the ground is 
crucial and I think there is quite a bit of that, because I 
know, especially in El Paso, we interact quite regularly with 
DEA and Customs. In fact, we've gotten agents on every task 
force that those two agencies have.
    Mr. Mica. And overall we do not have a coordinator in place 
at this point?
    Mr. Barker. I think there is one, and he is a U.S. 
Attorney.
    Mr. Keefe. The U.S. Attorney for the District of Arizona I 
believe is currently on the Southwest Border Council. Yes, sir. 
And they meet regularly, as do the law enforcement agencies 
meet with that council regularly, sir.
    Mr. Mica. OK. Well, that was one of the recommendations 
that came out of the hearing, that we have somebody in charge 
and coordinate. Maybe we can check with the agency heads to see 
how that is progressing. It was one of the problems that we 
identified.
    Are DEA agents still restricted, to your knowledge, on 
being armed in Mexico?
    Mr. Keefe. Nothing has changed, to my knowledge.
    Mr. Mica. Nothing has changed. Are you aware of any major 
kingpin drug trafficker expedited since DEA last came to 
testify before our subcommittee?
    Mr. Keefe. No, Mr. Chairman.
    Mr. Mica. No one?
    Mr. Keefe. No, sir.
    Mr. Mica. You testified mostly, Mr. Keefe, about black-tar 
heroin and the focus of this hearing has been predominantly on 
the black-tar heroin, but the meth explosion is basically 
another phenomena that we've never seen anything like. 
Everywhere we conduct a hearing now we are hearing local and 
State law enforcement officials tell us that they are being 
inundated by methamphetamine and mostly traced back to Mexico. 
Are you getting those same reports?
    Mr. Keefe. We see it back to Mexico or to Mexican national 
organizations that are producing it in California.
    Mr. Mica. They are also using networks of illegals involved 
in transport and even production in the States now.
    Mr. Keefe. That's correct.
    Mr. Mica. So the other thing that we're seeing is the 
actual meth product being transported from Mexico, and now we 
are getting into the illegals and the meth gangs being involved 
in these meth labs; is that also correct?
    Mr. Keefe. In the United States?
    Mr. Mica. Yes.
    Mr. Keefe. Yes, sir.
    Mr. Mica. Well, with producing small amounts of 
methamphetamine there are some domestic chemicals that can be 
used. Are we seeing precursors also come in from Mexico?
    Mr. Keefe. Yes. Obviously, they would be smuggled in, so 
yes there are some precursors coming in from Mexico, as well as 
coming into the United States, purchasing them here too, sir.
    Mr. Mica. This is just beyond belief, but in the central 
part of the United States, midwest, I guess Representative 
Latham had gotten a training center established at the cost of 
about $1.2 million a year for the past several years just to 
train local and State enforcement people on how to deal with 
meth labs. I understand going after meth labs is not a simple 
thing, because there is explosive and hazardous material 
involved. That's just, again, for that little tri-State area.
    Are you seeing or getting reports from local officials of 
the same problem in dealing with, again, this meth production, 
this meth lab around the country?
    Mr. Keefe. Absolutely. Absolutely, Mr. Chairman. It is a 
tremendous problem, as you mentioned, because the toxicity of 
the chemicals, the potential for explosion, and environmental 
concerns when they dump the waste into a local stream or just 
bury it in the ground.
    Mr. Mica. Again, I don't want to be over-exaggerating the 
meth situation, but everywhere we go--we have been in 
Sacramento. I mean, I couldn't believe the testimony we heard a 
couple of months ago from Mr. Ose's District along San Diego. 
San Diego had a meth epidemic.
    We were in Louisiana and heard incredible testimony of the 
meth coming now into the New Orleans area.
    In Dallas, TX, for Mr. Vitter, we held a hearing there. 
They told us there were 1,000 meth lab seizures in Oklahoma and 
the northern part of Texas.
    Are these figures accurate?
    Mr. Keefe. I would have to get you that information. I'm 
sure DEA has that information. We certainly can get it for you, 
Mr. Chairman.
    Mr. Mica. I see we have this Operation Tar Pit to go after 
the black-tar heroin now that we are seeing an explosion of. 
What about meth? Do we have a similar operation for meth, and 
Mexican meth, in particular?
    Mr. Keefe. We have numerous investigations, joint 
investigations, going on right as we speak, Mr. Chairman.
    Mr. Mica. Again, this is a different dimension. We know 
that black-tar heroin is being produced in Mexico, and Mexico 
feels we can identify it by your signature analysis program. 
Now we have not only the hard meth coming in, the product 
coming in, but we've got them producing, using the United 
States and these venues I've just described as production 
facilities in smaller labs.
    Do we have an effort to go after these people and trace 
them back? And many of them, we're getting reports, again, are 
illegals who shouldn't be here in the first place.
    Mr. Keefe. Yes, sir. Sir, if I could just explain, as far 
as the number of labs go you referred to in different parts of 
the country.
    Mr. Mica. Right.
    Mr. Keefe. A lot of those were referred to, as we call 
them, for lack of a better term, ``Mom and Pop labs,'' which 
are very small, produce maybe an ounce. A pound would be large. 
These are usually not Mexican national organized crime groups 
involved with these labs.
    Mr. Mica. Again, I've got to tell you, from Iowa, and the 
law enforcement folks told us that Mexican illegals are 
involved with the actual production. Trafficking is one thing, 
and I just described to you after your video that they had set 
up a sophisticated operation with auto parts, set up a store 
front, and were putting in the hard product. Now it shifts to 
production domestically. Bringing a hard product in is one 
problem, and we are discussing that as it transits the border 
here, but now we are seeing a new phase of this.
    I know there are many, many Mom and Pop, but we're also 
seeing bigger producers, Mexican gang initiated.
    Mr. Keefe. Agree 100 percent. What we would say at DEA, 
what we would see is that 10 percent of the clandestine labs in 
the United States are involved with Mexican traffickers, which 
are responsible for 85 percent of the methamphetamine in the 
United States. So the labs that we see the Mexican nationals 
involved in in the United States are what we call these ``super 
labs,'' which would be capable of making more than 10 pounds at 
a time.
    We see primarily most of those labs to date in the 
California area, and the traffickers as you referred to in 
Sioux City and those areas in the midwest, it is being 
transported across the United States to those organizations for 
distribution.
    I'm not saying that there aren't Mexican labs in the 
midwest, sir. At this time, DEA has not seen as we refer to the 
super labs. We see more Mom and Pops, which, as you mentioned, 
are a tremendous concern for those areas because of the 
financial problems in the cost to clean up those 1,000 labs, 
whether it is the Mexicans involved with the production or the 
Mom and Pop labs. It is still a tremendous law enforcement 
concern that is costing millions of dollars to clean up the 
problem.
    Mr. Mica. You also testified about payment in cocaine, this 
bartering.
    Mr. Keefe. Yes, sir.
    Mr. Mica. Can you describe for the subcommittee a little 
bit more of what new pattern we are seeing?
    Mr. Keefe. What we used to see in the early 1990's, when 
the Colombians started to work through the Mexicans, they used 
to pay the Mexicans for transportation so much money per kilo 
to get the cocaine into the United States. Let's use, back in 
the days when they were sending it in to Los Angeles, for 
instance, they would send it into Los Angeles. Once it was 
successfully delivered into Los Angeles, the Mexicans would 
return the drugs to the Colombian traffickers in the United 
States for distribution across the United States.
    The Colombians have now relinquished a lot of that to the 
Mexicans, and instead of paying them per kilograms they share 
with them. If it is a load, for instance, of 1,000 kilos, for 
example, coming into the United States, they will give, part of 
their agreement, 500 kilos to the Mexicans for the Mexicans to 
distribute, and then the Colombians will take their part and 
distribute it in those areas, primarily the East Coast for 
those. So the profit margin for the Mexicans, as you can 
imagine, has grown tremendously by doing business this way.
    Mr. Mica. Yes. Let me go back to our Border Patrol 
representative. One of the problems that we have had is 
corruption on the Mexican side of the border, and we are 
hearing that it is becoming more and more difficult to deal 
with Mexican officials because of the corruption element. Have 
you had a problem in that regard?
    Mr. Barker. Normally it does not affect us in terms of 
narcotics investigation because that is turned over to DEA. 
Most of the relationship that we have is to obtain information 
and to obtain cooperation that when something occurs on this 
side of the border and the person flees Mexico that we have 
some way to get him back or to apprehend the person. But in 
terms of investigation of narcotics, no, because we don't do 
the investigation.
    Alien smuggling is almost non-existent, and those are the 
larger investigations that we do.
    The cooperation is basically exchange of information, have 
a cooperative environment, but it does not translate to 
investigations.
    Mr. Mica. With your Border Patrol agents--I know DEA and 
Customs and others interdict more of the drugs, but what are 
your agents seeing out there as far as drugs coming across the 
border? More? Less? And what kinds of narcotics?
    Mr. Barker. It is more, and the majority of our seizures is 
related to marijuana. They are using backpackers a lot more 
than they did before. They are breaking the loads down in 
smaller quantities and using more backpackers just to make sure 
that if it is caught they do not lose a great quantity of their 
drugs.
    It has changed over the last few years. Probably about 5 or 
6 years ago we saw them floating maybe a ton of marijuana 
across the border. They do not do that any more. They use 
backpackers, horseback riders in remote locations, and in some 
cases backpackers go for 10, 20 miles to deliver the goods. 
They do it over a period of days to a specified location where 
it is picked up.
    So we are seeing the proliferation of use of backpackers, 
also in the tunnels and, in El Paso, the drainage system. They 
are packaging the marijuana so they can fit through 18-inch 
tunnels to get them to the place of distribution.
    Mr. Mica. I've flown over the border in some of the patrol 
surveillance planes, and that's a pretty big border, so it 
sounds like that is creating an even greater problem for you 
when they break down the loads in this manner; is that correct?
    Mr. Barker. Yes, sir. But we have ways to respond to that. 
We have been the beneficiary of some of the cameras that allow 
us to see greater areas.
    The other thing that we do is we have agents that are 
experienced trackers, and normally they will check these remote 
locations to look for the telltale sign of people smuggling 
drugs, because they can tell the difference, generally, between 
a person who is leading aliens across as a smuggler of aliens 
or a person who is backpacking narcotics, and they are very 
good at that and they track these people.
    The one thing that it gives us, it gives us a better 
opportunity to catch them because of the time that it would 
take for them to get from the border, the intended destination. 
And we have many ways of doing that.
    Judge Furgeson. Mr. Chairman, you mentioned cameras. I get 
a lot of cases with sensors. There are sensors all along the 
border used by the Border Patrol, and those sensors pick up a 
lot of traffic.
    Mr. Mica. Well, we are trying to get the most sophisticated 
equipment available and resources, both manpower and also 
assisting Customs and DEA and others, and technology to deal 
with the problem.
    One of the things that we have seen, and I think also in 
this video, we also conducted a hearing just on drugs through 
package service and the mail. Is DEA and Customs seeing, again, 
more sophisticated, legitimate use of legitimate transport for 
moving drugs around the country? Is that what you are seeing, 
Mr. Logan?
    Mr. Logan. Absolutely, Mr. Chairman. The courier services, 
the FedExs, the UPSs, when it absolutely, positively has to be 
there, you can access your package departure in arrival zones 
on the Internet. I'm confident that DEA is tracking that 
domestically. They've got some terrific cases going on in San 
Diego. UPS in San Diego, for example, once the narcotics are 
successfully smuggled in, that was one of the largest 
warehouses on most of narcotics because they were being shipped 
out of the UPS warehouses in Chula Vista. DEA was highly 
successful in an interagency State and local effort to track 
those packages and deliver them.
    Mr. Mica. Mr. Logan, can you provide the subcommittee with 
an update on anything relating to status of Arellano-Felix, the 
brothers that we have been after?
    Mr. Logan. Well, Customs is part of a larger operation with 
the FBI and DEA on the Arellano-Felix organization, and 
certainly we are frustrated that those fugitives have not been 
found or located. Customs continues to provide manpower, along 
with DEA and FBI, State, and locals to work every lead that we 
can. Certainly it is our judgment that narcotics that's 
transiting in the Baja area, there is a toll taken, the tax by 
the area on the Felix organization.
    Interesting side light, with Tar Pit we don't believe, that 
according to the DEA SAC in San Diego, Errol Chavez, that they 
were paying a toll, because they were able to keep the amounts 
and the black-tar heroin coming through those areas with a very 
low profile, so we were unaware of any toll being taxed by the 
Arellanos in the black tar.
    Joe may have some additional on that, but that was our 
sense in San Diego.
    Mr. Mica. Do you have anything on that, Mr. Keefe?
    Mr. Keefe. As Mr. Logan said, we did not see this group out 
of Nayarit connected at all to the Arellano-Felix. We saw them 
totally independent, right from the production, the growth of 
the opium, right through the distribution into the United 
States.
    Mr. Mica. What do they call that? Integrated----
    Mr. Keefe. Vertical integration.
    Mr. Mica. A vertical integration operation.
    Well, I appreciate each of you coming forward today. Our 
subcommittee is trying to put together a coherent policy to 
deal with this problem.
    As I said last night, we made some great progress. We know 
that most of these narcotics are produced in Colombia. Now we 
are seeing for the first time a dramatic increase of heroin 
production in Mexico, but which gives us another challenge and 
front to deal with, particularly given the level of corruption 
that we have had testimony relating to the problems, again, in 
Mexico.
    Now the violence in Mexico--now we hear about vertically 
integrated operations to produce this, coupled with the new 
activity with methamphetamine. That presents us with a pretty 
serious challenge.
    Unfortunately, I think it is going to take even more 
violence in Mexico to get their attention and cooperation, and, 
unfortunately, they are seeing that, too, at unprecedented 
levels. Maybe at the election they are having there will be 
some change and the emphasis placed on the domestic threat that 
poses for Mexico, and certainly the threat and problems it has 
created in the United States.
    Again, I want to thank all of you. I apologize. As I said, 
we were up voting until 2. There is no lack of interest in this 
subject. We probably will submit additional questions to you 
for the record, since we don't have a full membership of this 
subcommittee here, and we would like your response, if 
possible.
    Again, we appreciate your cooperation today.
    There being no further business or questions at this time, 
we'll excuse this panel.
    Our second panel this morning consists of two witnesses. 
The first witness is Chief Fabienne Brooks with the criminal 
investigations division of the King County Sheriffs Department 
in Seattle, WA. The second witness is Mr. Mario Medina. Mr. 
Medina's family, unfortunately, has experienced tragedy along 
the Chimayo, NM, border and will testify about that situation 
that so dramatically affected their family.
    We will just stand in recess for about 2 minutes.
    [Recess.]
    Mr. Mica. We'll call the subcommittee back to order and 
again welcome Chief Brooks and Mr. Medina.
    I'll call first on Chief Brooks, who is with the criminal 
investigations division of King County Sheriffs Department, 
Seattle, WA.
    Before I do that, let me say that we are an investigations 
and oversight subcommittee of Congress, and we must swear you 
in as you provide testimony to our subcommittee, so if you'd 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. We 
will now recognize Chief Brooks with the King County Sheriffs 
Department from Seattle, WA.
    Welcome. You are recognized.

 STATEMENTS OF CHIEF FABIENNE BROOKS, CRIMINAL INVESTIGATIONS 
 DIVISION, KING COUNTY SHERIFF'S DEPARTMENT, SEATTLE, WA; AND 
            MARIO MEDINA, FAMILY VICTIM, CHIMAYO, NM

    Ms. Brooks. Good morning, Mr. Chairman. On behalf of the 
King County sheriff, Dave Reichert, I am very honored to be 
here this morning to speak with you on the topic of black-tar 
heroin.
    My name is Fabienne Brooks and I am the chief of the 
criminal investigations division for the King County Sheriffs 
Office. I have already submitted my testimony.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record, and please proceed.
    Ms. Brooks. OK. I will summarize it.
    Mr. Mica. Go right ahead.
    Ms. Brooks. Just briefly, informationally, King County is 
the largest metropolitan county in Washington State in terms of 
population, number of cities, and employment. It is the 12th 
most populous county in the United States, and the King County 
Sheriffs Office, with over 1,000 employees, is the third-
largest police agency in the State of Washington and 13th 
largest sheriffs office in the United States.
    King County is an area that poses many attractive 
attributes for the distribution of heroin. It is the home of a 
major international airport, it is the hub of passenger and 
commercial rail and bus lines, and it has significant highway 
systems, not the least of which is I-5, which runs from the 
Mexican border up through Canada. We have a significant 
population, and thus it is a large customer base for this type 
of drug.
    King County is ranked as high as third in the Nation in 
heroin use in the recent past, and this is evidenced by a large 
and established user population.
    Just about 95 percent of the heroin used in King County has 
been identified as Mexican black-tar heroin. Drugs are secreted 
in or inside persons willing to bring these drugs into the area 
for a fee. They are hidden inside commercial trains or freight 
trucks crossing into the United States. We think much of the 
heroin reaching our area comes in vehicles, as you heard from 
earlier testimony.
    In 1998 we arrested what is known as a ``cell leader,'' 
which is a person who oversees a communication or a 
distribution network, with 9 pounds of black-tar heroin. This 
arrived in just one load from Mexico. The load was secreted 
inside a specially made metal box that was contoured to fit 
inside an engine block of a car. Once the car arrived, it was 
driven into a garage, where the engine was dismantled and the 
heroin was removed.
    We believe this particular leader had been in business 
since the mid-1980's, and he would receive a load this size 
about once to twice a month.
    As with many organized crime groups operating in an area, 
crime also accompanies the activities of heroin dealers, and 
this ranges from homicides to minor thefts committed by users. 
Of the people incarcerated in the King County jail, 60 percent 
are there on drug-related charges, not necessarily just heroin, 
but on drug-related charges.
    Several years ago, the King County Sheriff's Office 
recovered a baby that had been stolen from a family whose 
father was thought to be connected to the sales of drugs. The 
baby was to be held for ransom until the father paid the 
suspect.
    The family reluctantly called the police and the child was 
safely reunited with the family and suspects arrested after a 
brief pursuit.
    So, in addition to being ranked third in a use of heroin 
nationwide, King County has also been ranked as third for 
heroin overdoses, and that is what makes this area consider 
itself to be in an epidemic stage.
    The 1998 rate of heroin-related deaths had grown 200 
percent over the previous 8 years. The reason for the deaths is 
the purity of the Mexican heroin, which we have tested to be 
between 60 to 80 percent pure.
    Because of the geographical condensing of the people, 
street dealing in heroin is more prevalent in this community in 
our area and it provides a unique law enforcement problem for 
the Seattle Police Department. They have collected data that 
shows users come in from outside the area to buy heroin, and a 
large number of the buyers travel in areas of King County to 
get there.
    The strategies of the drug dealers, which was not talked 
about earlier, is that they use commercial airlines, they use 
produce trucks, they use passenger vehicles, and one of the 
ways they set up locations in our community, we've discovered, 
is that they arrange to rent a house that has a garage, and 
then they hire someone to take care of their home so that it 
doesn't arouse suspicion by the neighbors so that it doesn't 
appear neglected, and they act like quiet, no-problem 
neighbors, oftentimes picking locations on dead ends where it 
is hard to surveil and hard to pay attention to the traffic.
    They hire neighbors perhaps to watch the house for safety 
reasons and to get information on strange cars that may be seen 
in the area. Sort of a neighborhood block watch in reverse.
    They can also arrange for a vehicle repair business. This 
is what they do, as well.
    The challenges for the King County Sheriffs Office and law 
enforcement in our area is because we are so diverse and large 
with the different number of police agencies involved that 
there is a high need for inter-agency communication. Just 
because the heroin is purchased in one area doesn't necessarily 
mean that it is going to stay in that area. There are multiple 
routes. We are one of only three States that doesn't have two-
party consent. I mean, we do not have one-party consent in our 
State. I apologize for that error.
    What we are doing in King County is participating in a 
county-wide heroin initiative task force that has brought 
together representatives of all groups associated with this 
problem--care providers, health care people, fire department, 
police agencies, treatment providers--looking at the heroin 
problem from treatment and prevention to enforcement. And we 
are also involved in the northwest HIDTA Drug Task Force in our 
area.
    So, in summary, I would like to thank you again for the 
opportunity to address you, and I will be happy to answer 
questions.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Ms. Brooks follows:]
    [GRAPHIC] [TIFF OMITTED] T2582.035
    
    [GRAPHIC] [TIFF OMITTED] T2582.036
    
    [GRAPHIC] [TIFF OMITTED] T2582.037
    
    [GRAPHIC] [TIFF OMITTED] T2582.038
    
    [GRAPHIC] [TIFF OMITTED] T2582.039
    
    [GRAPHIC] [TIFF OMITTED] T2582.040
    
    [GRAPHIC] [TIFF OMITTED] T2582.041
    
    [GRAPHIC] [TIFF OMITTED] T2582.042
    
    [GRAPHIC] [TIFF OMITTED] T2582.043
    
    [GRAPHIC] [TIFF OMITTED] T2582.044
    
    [GRAPHIC] [TIFF OMITTED] T2582.045
    
    [GRAPHIC] [TIFF OMITTED] T2582.046
    
    Mr. Mica. We will get to questions in just a few minutes.
    I am pleased now to recognize Mr. Medina. I appreciate your 
coming forward and providing us with your testimony and your 
personal experience. I know you had a tragedy in your family.
    At this time, if you could, sir, describe what has taken 
place and the, again, horrible effects on your family to the 
subcommittee. Thank you, sir.
    Mr. Medina. Good morning, Mr. Chairman. I'm going to read a 
brief part of my statement here.
    Mr. Mica. Take your time. Again, we appreciate your coming 
forward.
    Mr. Medina. Sure. My family had to deal with this very 
problem. My sister passed away from a drug overdose. My only 
sister is now dead and I am left an only child. Instead of my 
parents retiring at the age of 65, they are now raising their 
two granddaughters as their own children. My nieces, who are 
now 13 and 11, ask questions as to why God took their mother. 
These are results caused by drugs in society.
    Mr. Mica. Thank you. I appreciate your, again, coming 
before us today.
    [The prepared statement of Mr. Medina follows:]
    [GRAPHIC] [TIFF OMITTED] T2582.047
    
    Mr. Mica. Let me first turn, if I may, to Ms. Brooks, if 
that concludes your testimony.
    Mr. Medina. Yes, it does.
    Mr. Mica. I will start with several questions. First of 
all, you said your area is third in the United States in heroin 
overdoses; is that correct?
    Ms. Brooks. That's correct.
    Mr. Mica. And you said there was a 200 percent increase in 
deaths, heroin overdose deaths. What period was that for?
    Ms. Brooks. From 1990 through 1998.
    Mr. Mica. From 1990 to----
    Ms. Brooks. Over a 4-year period, yes.
    Mr. Mica. And that continues? You're seeing a continuation 
of the same type of problem?
    Ms. Brooks. Exactly. I don't have the information for 1999 
statistics, but they estimated that the number of deaths was on 
the increase.
    Mr. Mica. One of the things that we have tried to do--and 
we do have oversight over the HIDTAs, the high-intensity drug 
trafficking area designation, is to provide resources to areas 
that have been impacted. I'm afraid we may have to declare the 
United States a HIDTA before this is over. But how are the 
resources that are being provided by the Federal Government 
being utilized? Are they adequate? Are they properly utilized? 
Is it just a lack of not getting additional assistance? Is this 
effective use of our Federal tax dollars? Could you give us 
your insight?
    Ms. Brooks. Well, it certainly is an effective use of our 
tax dollars in terms of attacking the drug problem. We have a 
close working relationship with the HIDTA Task Force and I have 
an investigator assigned to that task force to help focus on 
drug investigations in King County.
    Federal rules allow for a different level of investigation 
of drug dealers.
    Mr. Mica. Yes.
    Ms. Brooks. Part of the information that we get comes from 
neighborhoods and phone calls. That doesn't necessarily rise to 
the level of Federal investigation. So, while the money from 
HIDTA goes to Federal-level investigations, local law 
enforcement sort of has to keep doing with the funding that 
they have.
    Local law enforcement block grants for collaborative 
efforts on the local law enforcement level would provide 
additional resources for us to be able to look into the problem 
and to approach the problem.
    Mr. Mica. Did I hear you describe to the subcommittee a 
situation with black-tar heroin has reached an epidemic 
proportion in that region, or your locale?
    Ms. Brooks. Heroin use has reached an epidemic proportion, 
and 95 percent of it is black-tar heroin.
    Mr. Mica. You said 95 percent?
    Ms. Brooks. Right.
    Mr. Mica. That's an incredible figure.
    Ms. Brooks. Right.
    Mr. Mica. Our subcommittee has been as far as Sacramento. 
We have not been to your jurisdiction. But that is alarming. 
And most of it is coming in transited over I-5, you said, 
through couriers?
    Ms. Brooks. Through couriers, yes. I mean, there are some 
airplanes, but----
    Mr. Mica. It has also made your area, now that you have the 
narcotics, sort of a magnet for attracting additional users and 
criminal activity.
    Ms. Brooks. Exactly.
    Mr. Mica. Do you think we can handle this by just spending 
more money on treatment and giving up the enforcement?
    Ms. Brooks. I don't think we should give up the enforcement 
piece of it. There is always going to be a need for the 
enforcement part. I think adding more resources for an overall 
holistic approach to it would help reduce the level, but if you 
just put money on treatment then the enforcement goes lacking.
    Mr. Mica. Basically, you are drowning in this stuff.
    Ms. Brooks. Yes.
    Mr. Mica. The sheer quantities that are coming in.
    Ms. Brooks. Yes.
    Mr. Mica. Mr. Medina, your sister died a tragic death. What 
did she die from?
    Mr. Medina. Ingestion of black-tar heroin.
    Mr. Mica. Where did that heroin come from?
    Mr. Medina. To my knowledge, I----
    Mr. Mica. There's only one place that I know it is 
produced. That's Mexico.
    Mr. Medina. I guess so.
    Mr. Mica. Unfortunately, your family's situation I 
understand was repeated some 80-plus times in the community you 
came from. Is that correct?
    Mr. Medina. That's in 1 year.
    Mr. Mica. In 1 year?
    Mr. Medina. It repeated itself in 1 year 80 times.
    Mr. Mica. So she isn't alone in losing her life to this 
deadly narcotic. Was she involved in criminal activity, or----
    Mr. Medina. Not that we know of.
    Mr. Mica. And I believe she also was the victim of a very 
high content, high purity content black-tar heroin.
    Mr. Medina. Yes, she was.
    Mr. Mica. And you said she left behind two children?
    Mr. Medina. Yes, she did.
    Mr. Mica. What has been the effect on your family?
    Mr. Medina. Pretty much just a family affected as drugs as 
far as the small community we live in. Just about every family 
has been affected in one way or another, whether it be a 
friend, a relative, a close sibling. It has affected everyone.
    Mr. Mica. Well, you know, I'm one of the Federal elected 
officials. We are only temporary representatives here trying to 
figure out ways to establish policy to keep this from 
happening. You were kind enough to come and tell us about your 
tragedy. What is your recommendation to us? Should we give this 
up? As a human being who has probably been inflicted with a 
tremendous amount of pain, what is your recommendation to 
Congress, to me and others who set this policy?
    Mr. Medina. My recommendation would be to try and stop the 
problem before it starts. Pretty much I know a lot of users in 
the community that I live in, and I think you need to get the 
people before they start using the drug.
    Mr. Mica. Once they have become a user, our statistics show 
a 70 percent failure rate with public treatment programs. Did 
your sister go through any treatment program?
    Mr. Medina. No.
    Mr. Mica. Alright. Then she wasn't a habitual user?
    Mr. Medina. She used about maybe 8 months.
    Mr. Mica. So she was addicted for 8 months?
    Mr. Medina. Yes.
    Mr. Mica. And then died of an overdose?
    Mr. Medina. Yes.
    Mr. Mica. Do you know others in the community that have 
been similar----
    Mr. Medina. I know many.
    Mr. Mica. How big is Chimayo?
    Mr. Medina. It is approximately about 3,000 in population.
    Mr. Mica. It's 3,000 and you had 85 deaths?
    Mr. Medina. Yes. But that's actually like Rio Arriba 
County, which is not a southern town. It is actually a northern 
county in New Mexico. But it is actually traveling the whole 
county now. It is not just Chimayo.
    Mr. Mica. So you think we should continue our efforts to 
keep this stuff from coming across our borders?
    Mr. Medina. I think the effort needs to put more not in 
treatment but in stopping people from using the first time.
    Mr. Mica. Going after the people who are dealing in this 
death.
    Have the people who gave your sister the narcotics been 
located?
    Mr. Medina. Not to my knowledge.
    Mr. Mica. So basically her death has gone unavenged?
    Mr. Medina. Yes. Pretty much.
    Mr. Mica. Well, again, we appreciate your coming forward 
and giving our subcommittee your testimony, your personal 
experience. There were 15,973 that died in 1998 as a direct 
result of illegal narcotics and drug overdoses. Therefore, the 
number is growing and growing. We don't have the 1999 figures, 
and we are losing more than we lost in some of our wars as a 
result of these narcotics.
    The testimony you have provided, Ms. Brooks, shows us 
another spot on the chart and the national map of a very 
serious problem. Any other recommendations you might have for 
this subcommittee on how to deal with this problem? Again, as a 
local official we seek your input on how we can do a better 
job.
    Ms. Brooks. In just listening to Mr. Medina, one of the 
areas I think we need to focus on is education, because the 
young kids have the perception of heroin being the person who 
uses the thing around your arm and you inject it, but they 
aren't injecting it, so they don't think it is a big problem, 
and they think that they can use it once and that's fine. Well, 
statistics show that that doesn't happen, and I think if we can 
put more focus on educating and letting people know the extent 
of the problem and what the ramifications of it are for the 
young people it may be able to deter them from using it.
    Mr. Mica. One of the things that we've done in Congress is 
we've started a program. It is the most extensive in the 
history of the U.S. Government, really, as far as drug 
education and media attention to the problem, that's our 
national media campaign. It is over $1 billion plus matched by 
$1 billion locally, and that has been in effect a little over a 
year now. Unfortunately, we are getting back mixed reviews on 
its effectiveness. What is your observation, Ms. Brooks?
    Ms. Brooks. Personally, I have to admit I haven't seen it, 
and I watch TV a lot. I'm not quite sure where the message is 
going, if it is going to the right people.
    Mr. Mica. That disturbs me, because you obviously have a 
target area. You are third in the Nation.
    Ms. Brooks. Yes.
    Mr. Mica. We are spending $1 billion and requiring another 
$1 billion in contributions, and you haven't seen the program.
    We're going to have the drug czar in here, I think July 
11th, and do another review of the program, not to give the 
drug czar a hard time, but when we have an area like your 
community that is experiencing, again, dramatic increases in 
deaths and abuse and trafficking, and we don't have even you, 
being aware of that program, or it being targeted to there, we 
obviously have a problem.
    Mr. Medina, have you seen any of the ads or efforts to 
educate?
    Mr. Medina. Pretty much the same old clinics and, you know, 
the methadone and these high-dollar rehabs, which I think is 
more a private industry, moneymaking situation. Other than 
that, that's about all.
    Mr. Mica. I think I would have to share your opinion. It 
has turned into a cottage industry, and again, people aren't 
aware of it, but we have doubled since 1992 the amount of money 
in treatment, Even since the new majority, we've increased the 
money for treatment some 26 percent in 4\1/2\, 5 years here, 
and the numbers who are addicted are dramatically increasing, 
and particularly among our young people.
    How old was your sister, Mr. Medina?
    Mr. Medina. She was 31 at the time.
    Mr. Mica. Thirty-one. Pretty much destroyed her life, and 
I'm sure the effects on your family have been dramatic.
    I don't think there is a family in the country that hasn't 
been affected today. I give these speeches on Tuesday nights, 
usually, the special orders, and talk for an hour on the drug 
problem, and as I left last week, one of the clerks who 
followed me out at midnight said, ``Mr. Mica, my son is 21,'' I 
think he said, ``and the last year or two he has been on 
drugs,'' and his family has been through a living hell and they 
can't find successful treatment. They can't deal with the 
problem. Unfortunately, we are hearing that repeatedly across 
the land. It continues to be something that is an incredible 
challenge for us.
    Sort of in closing, Ms. Brooks, the enforcement and 
prosecution levels in some States are not as tough as the 
Federal minimum mandatories. What is the situation in your 
State? Are your State laws tougher or are the Federal laws 
tougher?
    Ms. Brooks. I believe the Federal laws are tougher in our 
State.
    Mr. Mica. And would you recommend to the subcommittee--
again, I am under tremendous pressure. We've held a hearing on 
lowering the minimum mandatories or abolishing them, and we get 
criticized for having them. We have allowed flexibility and, 
some, again, relief and flexibility to judges. What is your 
recommendation to the panel?
    Ms. Brooks. My recommendation, in terms of the mandatory 
minimums, are to work toward increasing those minimums on the 
State level so that they match what the Federal levels are.
    Mr. Mica. Well, that would be something you would have to 
do with Washington, but----
    Ms. Brooks. Well, I would recommend that they stay where 
they are.
    Mr. Mica. At the Federal level?
    Ms. Brooks. Yes.
    Mr. Mica. Yes. And you, again, see that as some type of a 
deterrent or effective way to deal with the problem?
    Ms. Brooks. That's one way to deal with the problem. I 
think, again, it needs to be an approach that includes 
treatment providers as well as punishment, because, 
unfortunately, once people get addicted they feel like they 
have to--well, they do commit crimes to continue their habits, 
and if we can treat them for that issue----
    Mr. Mica. And separating them out----
    Ms. Brooks. And separating them out----
    Mr. Mica [continuing]. Between people who are addicted and 
committing crimes and people who are trafficking or dealing in 
deadly quantities.
    Ms. Brooks. Exactly.
    Mr. Mica. What about prosecution? Are you all going after, 
at the local level, the traffickers and dealers primarily, or 
are you focused on just the users?
    Ms. Brooks. We are focusing primarily on the dealers. There 
are certainly users that we target, but we focus on the mid-
level dealers who are distributing the heroin.
    In King County, 1997 we had prosecutions to over 3,000. In 
1998, it went up to 3,200. I don't have the 1999 statistics, 
but it was believed that it would be about at that same level, 
so we are still prosecuting and it is increasing.
    Mr. Mica. And you said over 60 percent of those in your 
jails, local jails, are there because of drug-related offenses?
    Ms. Brooks. Yes.
    Mr. Mica. Are they there for a felony or for misdemeanors 
or combination? Again, how would you describe the people who 
end up incarcerated, small-time users?
    Ms. Brooks. I don't have the information in terms of if the 
60 percent are primarily felonies or misdemeanors, but I can 
tell you they are in there for a variety of reasons, from the 
petty shoplifts up to the major burglaries and assaults.
    Mr. Mica. But you would say that crime is a result of 
their----
    Ms. Brooks. The crime is a result of their addiction.
    Mr. Mica [continuing]. Addiction?
    Ms. Brooks. Yes.
    Mr. Mica. Well, we appreciate your testimony before this 
subcommittee.
    Mr. Medina, we also appreciate your coming before us.
    Did you have any final comments or recommendations? Again, 
I know you came a long way, but it is important that we focus 
on this problem, and we don't want another individual lost in 
our country or family affected the way you have had a horrible 
tragedy occur, so again we thank you for coming, for being a 
part of this.
    I thank both of you.
    On July 11th--just an announcement for the subcommittee--we 
will have Drug Czar Barry McCaffrey testifying on a second 
hearing relating to our drug education and national media 
campaign.
    There being no further business to come before this 
subcommittee, I'd like to excuse these witnesses. Thank you 
again for coming forward.
    The Subcommittee on Criminal Justice, Drug Policy, and 
Human Resources is adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T2582.048

[GRAPHIC] [TIFF OMITTED] T2582.049

[GRAPHIC] [TIFF OMITTED] T2582.050

[GRAPHIC] [TIFF OMITTED] T2582.051

[GRAPHIC] [TIFF OMITTED] T2582.052

[GRAPHIC] [TIFF OMITTED] T2582.053

[GRAPHIC] [TIFF OMITTED] T2582.054

[GRAPHIC] [TIFF OMITTED] T2582.055

[GRAPHIC] [TIFF OMITTED] T2582.056

[GRAPHIC] [TIFF OMITTED] T2582.057

[GRAPHIC] [TIFF OMITTED] T2582.058

[GRAPHIC] [TIFF OMITTED] T2582.059

[GRAPHIC] [TIFF OMITTED] T2582.060

[GRAPHIC] [TIFF OMITTED] T2582.061

[GRAPHIC] [TIFF OMITTED] T2582.062

[GRAPHIC] [TIFF OMITTED] T2582.063

[GRAPHIC] [TIFF OMITTED] T2582.064

[GRAPHIC] [TIFF OMITTED] T2582.065

[GRAPHIC] [TIFF OMITTED] T2582.066

[GRAPHIC] [TIFF OMITTED] T2582.067

[GRAPHIC] [TIFF OMITTED] T2582.068

                                   - 
</pre></body></html>
